    Office of Inspector General
          Audit Report


 INCREASED PARTICIPATION AND IMPROVED
OVERSIGHT MECHANISMS WOULD BENEFIT THE
         NAFTA PILOT PROGRAM


       Federal Motor Carrier Safety Administration

              Report Number: MH-2012-169
              Date Issued: August 16, 2012
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Increased Participation and Improved                                 Date:    August 16, 2012
           Oversight Mechanisms Would Benefit the NAFTA
           Pilot Program
           Federal Motor Carrier Safety Administration
           Report No. MH-2012-169

  From:                                                                              Reply to
                                                                                     Attn. of:   JA-40
           Joseph W. Comé
           Assistant Inspector General for
              Highway and Transit Audits

    To:    Federal Motor Carrier Safety Administrator

           On July 8, 2011, the Federal Motor Carrier Safety Administration (FMCSA)
           published a Federal Register notice 1 authorizing Mexico–domiciled motor carriers
           to transport cargo under a pilot program beyond the commercial zones 2 and
           throughout the United States (long–haul operations). The pilot program is intended
           to implement provisions of the 1992 North American Free Trade Agreement
           (NAFTA). We are required by law 3 to review FMCSA’s conduct of cross–border
           trucking pilot programs and issue initial, interim, and final audit reports to
           Congress and the Secretary of Transportation. We issued an initial report 4 on
           August 19, 2011, and on October 14, 2011, FMCSA formally initiated the pilot
           program by granting long–haul operating authority to the first participant.

           Our objectives for this interim audit were to determine whether (1) the pilot
           program consists of an adequate and representative sample of Mexico–domiciled
           carriers that are likely to engage in cross–border operations beyond the United
           States municipalities and commercial zones on the United States–Mexico border,
           (2) Federal and State monitoring and enforcement activities are sufficient to

           1
               Pilot Program on the North American Free Trade Agreement (NAFTA) Long-Haul Trucking Provisions, Docket
               No. FMCSA-2011-0097, 76 Fed. Reg. 40420 (July 8, 2011).
           2
               Commercial zones generally extend from 3 miles to 25 miles north of United States border municipalities in
               California, New Mexico, and Texas (or 75 miles in Arizona).
           3
               Pub.L. No. 110-28 (2007).
           4
               OIG Report Number MH-2011-161, “FMCSA Generally Complies With Statutory Requirements, but Actions Are
               Needed Prior To Initiating Its NAFTA Cross-Border Trucking Pilot Program,” August 19, 2011. OIG reports are
               available on our Web site at http://www.oig.dot.gov.
                                                                                                                    2


ensure that participants in the pilot program are complying with all applicable laws
and regulations, and (3) the Department has established sufficient mechanisms to
determine whether the pilot program is adversely affecting motor carrier safety.

To conduct our audit work, we reviewed pilot program documents, interviewed
FMCSA personnel, monitored pilot program participation levels, directly observed
three pre–authorization safety audits (PASA) 5 conducted by FMCSA in the United
States and Mexico, and analyzed data generated from electronic monitoring
devices installed on participating trucks. We conducted this audit from
October 2011 through May 2012 in accordance with generally accepted
Government auditing standards. We also updated our report to reflect additional
program participation activity that occurred from levels we reported in our May
2012 draft report. Exhibit A details our objectives, scope, and methodology, and
exhibit B identifies the organizations we visited or contacted.

RESULTS IN BRIEF
The low participation in the pilot program puts FMCSA at risk of not meeting its
goals for providing an adequate and representative sample of Mexico–domiciled
carriers and inspections necessary to assess the impact on motor carrier safety.
FMCSA estimates that at least 46 carriers will be needed to obtain a target of
4,100 inspections within 3 years to provide a statistically valid analysis of program
participants’ safety performance. 6 FMCSA has approved long–haul operating
authority for four carriers and completed 89 of the 4,100 inspections, 52 of which
extended beyond the commercial zone. Although the 30 applications FMCSA
received indicates that participation may increase, we cannot determine at this
time whether increased participation will be sufficient to provide an adequate and
representative sample of carriers and inspections.

FMCSA's oversight mechanisms did not ensure full compliance with pilot
program requirements; and at the time of our review, it was still developing certain
monitoring mechanisms. Specifically, FMCSA staff did not comply with new
English language proficiency requirements for testing drivers on traffic and road
signs during two of three PASAs we observed. 7 FMCSA’s quality assurance
personnel approved PASA results for two of three Mexico–domiciled carriers
before verifying that required driver’s license testing had been completed, and
made errors in determining whether one potential carrier complied with Federal
drug and alcohol testing regulations. Additionally, FMCSA’s monitoring plan did
not include periodic reviews of electronic monitoring data quality and reporting

5
    A PASA is an FMCSA review in which the motor carrier must demonstrate that it complies with requirements for
    drug and alcohol testing, hours-of-service, insurance, vehicle maintenance and inspections, and qualified drivers.
6
    According to FMCSA, statistically valid results would detect differences in violation rates between United States
    and Mexican carriers of 2 percentage points or greater with 90–percent confidence.
7
    FMCSA completed a total of five PASAs during our audit field work.
                                                                                                                     3


accuracy as the pilot program moves forward and participation increases. Finally,
FMCSA has delayed development of a mechanism for detecting cabotage
violations. 8

At the time of our review, FMCSA did not have sufficient data to determine
whether the pilot program poses risks to safety. Additionally, the current low
participation rate does not allow us to make reliable statistical projections
regarding safety attributes. We will continue to monitor the progress of the
program during the final stage of our audit series to determine whether sufficient
data becomes available to make reliable conclusions on the potential risks to safety
that the pilot program poses.

We are making recommendations to enhance the effectiveness of FMCSA’s
monitoring and enforcement activities based on our observations and analysis of
available data during the first 6 months of the pilot program.

BACKGROUND
On August 19, 2011, before the pilot program was initiated, we provided the
Secretary and Congress an initial audit report verifying FMCSA’s compliance
with requirements Congress established in 2001. 9 The Department submitted a
report to Congress on October 3, 2011, detailing actions taken in response to our
recommendations.

The pilot program, as defined in the July 8, 2011, Federal Register notice, would
last up to 3 years and allow Mexico–domiciled motor carriers to operate
throughout the United States. Passenger and hazardous materials carriers are not
allowed to participate in the program. Before receiving permanent long–haul
operating authority, pilot program participants with provisional operating authority
are required to progress through a series of inspections and evaluations of safety
performance. Participants must comply with motor carrier safety regulations in
addition to requirements associated with acceptance into the pilot program.

In designing the pilot program, FMCSA projected that 46 carriers would be
needed to achieve a target of 4,100 inspections in order to obtain statistically valid
results that detect differences in violation rates between United States and
Mexican carriers of 2 percentage points or greater with 90 percent confidence.
FMCSA issued updated guidance for conducting PASAs 10 and for using electronic
monitoring devices installed on pilot program trucks. FMCSA must complete a
PASA of each prospective carrier and must publish the results of each PASA in
8
     Cabotage is a prohibited activity under the provisions of the pilot program whereby motor carriers pick up cargo
     from one location in the United States and deliver the same cargo to another location within the United States.
9
     Department of Transportation and Related Agencies Appropriations Act, Pub. L. No. 107-87, Title I, §350(a) (2001).
10
     Section 350 of Pub.L. No. 107-87 defines elements that FMCSA must review during PASAs for each Mexico–
     domiciled carrier applying for participation in the pilot program.
                                                                                    4


the Federal Register for public comment before granting long–haul authority. In
addition, FMCSA must equip each participating truck with an electronic
monitoring device with Global Positioning System capabilities that transmits data
for monitoring compliance with the hours–of–service and cabotage regulations.

FMCSA IS AT RISK OF NOT MEETING PARTICIPATION GOALS
NECESSARY TO ASSESS MOTOR CARRIER SAFETY
The low participation in the pilot program puts FMCSA at risk of not meeting its
goals for providing an adequate and representative sample of Mexico–domiciled
carriers and inspections necessary to assess the impact on motor carrier safety.
Although the 30 applications FMCSA received indicates that participation may
increase, we cannot determine at this time whether increased participation will be
sufficient to provide an adequate and representative sample of carriers and
inspections.

Pilot Program Participation Has Been Minimal
Unless the number of program participants significantly increases, FMCSA could
be at risk of not meeting its pilot program participation goals to provide an
adequate and representative sample of Mexico–domiciled carriers and inspections
necessary to assess the impact on motor carrier safety. As shown in figure 1,
participation in the pilot program is substantially lower than FMCSA’s goals for
the number of carriers participating in the program and the number of inspections
conducted.

Figure 1. FMCSA’s Limited Progress in Meeting Pilot Targets




Source: FMCSA

Four carriers—Transportes Olympic, Moises Alvarez Perez, Baja Express
Transportes, and Transportes Del Valle—are participating in the pilot program.
FMCSA estimated that at least 46 carriers would be needed to achieve a 3–year
target of 4,100 inspections for statistically valid analysis of the safety performance
of pilot program participants. Table 1 shows that FMCSA approved long–haul
                                                                                                                       5


operating authority for four carriers and completed 89 of the 4,100 inspections,
52 of which extended beyond the commercial zone.

 Table 1. Pilot Program Participant Crossings, Inspections, and
 Out-of-Service Rates




Source: FMCSA data
* Out-of-service (OOS) rates are calculated by dividing the number of OOS inspections by the total number of
   inspections for each category when at least one violation is available for the previous 12-month period.

Transportes Olympic is a one–truck and two–driver carrier from Nuevo Leon, and
received pilot program authority in October 2011. The carrier is the only pilot
program participant traveling beyond the border States at this time, and has made
trips through Alabama, Arkansas, Florida, Georgia, Kentucky, Louisiana,
Mississippi, North Carolina, South Carolina, and Tennessee. Transportes
Olympic’s 18–month participation in the previous pilot program qualifies it for the
permanent authority stage 11 of the current pilot program and exempts it from the
inspection requirements for new carrier participants.

Moises Alvarez Perez is a one–truck and one–driver carrier from Tijuana. This
carrier participated in the previous pilot program and was approved for the second
pilot program on December 28, 2011. Moises Alvarez Perez has remained within
the border States.

Baja Express is a one–truck and one–driver carrier from Tijuana. Baja Express
entered the pilot program as a new carrier operation and was granted authority on
March 30, 2012. Baja Express has remained within the border States for 5 of its
35 crossings and within the commercial zone for the other 30 crossings.

Transportes del Valle is a one–truck and one–driver carrier from Tijuana.
Transportes del Valle entered the pilot program as a new carrier operation and was
granted authority on June 12, 2012. Transportes del Valle has remained within the
border States.




11
     Under the pilot program, participating carriers operate under three successive stages of monitoring. After operating
     in the pilot program for 18 months with a satisfactory safety rating and no pending enforcement or safety
     improvement actions, carriers advance to the permanent operating authority stage of the pilot program.
                                                                                  6


FMCSA Received 30 Applications for the Pilot Program
FMCSA has received 30 Mexico–domiciled carrier applications for the pilot
program. According to data in FMCSA’s electronic Mexican Carrier Application
Tracking System, seven carriers were being vetted, two carriers were awaiting a
PASA, five carriers were undergoing PASAs, and nine carriers had successfully
passed a PASA. In addition, FMCSA dismissed four applications and three
carriers withdrew their applications.

FMCSA indicated that ongoing vetting of carriers’ past safety performance and
affiliations with other carriers, outstanding requests for carrier information, and
safety assessments of potential PASA locations in Mexico contributed to delays in
processing applications. Figure 2 illustrates where delays are occurring within the
application process.

Figure 2. Pilot Program Application Processing Delays




Source: OIG analysis


FMCSA IS STILL DEVELOPING OVERSIGHT MECHANISMS FOR
SOME PILOT PROGRAM REQUIREMENTS
FMCSA’s oversight mechanisms did not ensure full compliance with pilot
program requirements, and at the time of our review, it was still developing certain
monitoring mechanisms. Specifically, FMCSA staff did not comply with new
English language proficiency requirements for testing drivers on traffic and road
signs during two of three PASAs we observed. FMCSA’s quality assurance
personnel approved PASA results for two of three Mexico–domiciled carriers
                                                                                                              7


before verifying that required driver’s license testing had been completed, and
made errors in determining whether one potential carrier complied with Federal
drug and alcohol testing regulations. Additionally, FMCSA’s monitoring plan did
not include periodic reviews of electronic monitoring data quality and reporting
accuracy as the pilot program moves forward and participation increases. Finally,
FMCSA has delayed development of a mechanism for detecting cabotage
violations.

FMCSA Did Not Comply with PASA Requirements for ELP Traffic and
Road Sign Testing

FMCSA’s PASA auditors did not comply with FMCSA’s Federal Register notice
that sets forth ELP requirements for testing drivers on traffic and road signs.
During PASAs, FMCSA determines a driver’s proficiency in English through an
interview and a traffic and road sign test. FMCSA’s July 8, 2011, Federal Register
notice requires that responses to these tests be made in English. Contrary to this
requirement, at two of the three PASAs we observed, FMCSA auditors allowed
drivers to give responses to traffic and road sign questions in Spanish.

Specifically, during the three PASAs we observed––two in the United States and
one in Mexico—the FMCSA auditors correctly followed the requirements for the
driver interview. 12 This interview tests prospective drivers on their ability to
respond in English to a minimum of four questions. For the traffic and road sign
portion of the ELP test, FMCSA’s 2008 ELP policy provides a list of 21 traffic
and road signs from which its auditors randomly choose 4 signs to test drivers.
The July 8, 2011, Federal Register notice requires responses to this test in English,
and FMCSA did not update the 2008 ELP policy to reflect this requirement. This
was a factor in safety auditors allowing Spanish responses as we observed
FMCSA auditors using the 2008 ELP policy memo during the PASA.

The ELP guidance and training was developed for expeditious testing by
enforcement officials in a time–sensitive roadside environment. However, PASAs
are not conducted under such constraints. Based on our observations of PASAs,
sufficient time is available for testing drivers on all 21 road signs rather than the
4 randomly selected signs. Mexico–domiciled drivers may not recognize all
critical road signs. For example, drivers who did not pass the road sign test were
often unable to explain the meaning of “Railroad Crossing” and “Wrong Way”
signs in either language. Testing drivers on all 21 signs could provide a greater
level of safety assurance and better ensure drivers’ comprehensive knowledge of
road signs.


12
     FMCSA completed five PASAs in the first 100 days of the pilot program–two in the United States and three in
     Mexico.
                                                                                                                            8


Finally, FMCSA does not require traffic and road sign tests to include a height
clearance sign, which could be a potential risk factor as height clearance is an
important factor in driving large commercial trucks.

FMCSA Did Not Always Complete Required Driver’s License
Testing Verifications Before Quality Assurance Personnel
Approved PASA Results

In two of three instances we reviewed, FMCSA’s quality assurance personnel
approved PASA results for Mexico–domiciled carriers before FMCSA verified
that Mexico’s transportation ministry—Secretaria de Communiciones y
Transportes (SCT)—had tested the qualifications of 18 prospective pilot program
drivers for commercial driver’s licenses (CDL). Although this oversight did not
result in Federal Register publications of PASA results or the approval of
unqualified drivers, it showed that FMCSA had not updated its quality assurance
procedures for PASAs to reflect the requirement to verify the SCT confirmation.

By law, FMCSA must verify that Mexico has tested the qualifications of
prospective pilot program drivers. 13 FMCSA recognizes Mexico’s Licencia
Federal de Conductor as equivalent to CDLs in the United States. In the
October 12, 2011, Federal Register, FMCSA tightened its rules to require that
SCT test all pilot program drivers, after a FMCSA review of third–party testing
facilities 14 in Mexico found deficiencies such as passing rates below the required
threshold and missing portions of the required curriculum. FMCSA’s pilot
program process calls for verifying the SCT testing of prospective drivers during
its applicant vetting process, which is followed by the PASA. Once the carrier
successfully completes the PASA, FMCSA publishes the results in the Federal
Register.

We found that verification of SCT testing did not always occur before or during
the PASA. We reviewed documentation for the three PASAs we observed and
found that the FMCSA supervisors and new entrant specialists assigned to review
PASA results for two carriers completed the quality assurance review process and
approved the PASA results before FMCSA confirmed that SCT tested the carrier’s
prospective drivers. For one carrier, FMCSA entered the approved PASA results
into its Mexican Carrier Application Tracking System (eMCATS) on
November 29, 2011, although FMCSA received confirmation on the SCT license
check on January 3, 2012. For the second carrier, FMCSA entered the approved


13
     Department of Transportation and Related Agencies Appropriations Act, Pub. L. No. 107-87, Title I,
     § 350(a)(1)(B)(viii) (2001).
14
     49 C.F.R. § 383.5 defines a third-party tester as a person (including, but not limited to, another State, a motor carrier,
     a private driver training facility or other private institution, or a department, agency or instrumentality of a local
     government) authorized by the State to employ examiners to administer the CDL skills tests.
                                                                                                                          9


PASA results into eMCATS on January 3, 2012, although FMCSA received
confirmation on the SCT license check on January 30, 2012.

Although FMCSA completed the quality assurance review process and approved
the PASA results before it confirmed that SCT tested the carrier’s prospective
drivers, no FMCSA Register Notices were actually published before the driver
qualifications were confirmed, and no unqualified drivers were approved. In our
opinion, FMCSA’s quality assurance personnel overlooked the SCT testing
requirement because it was not included in FMCSA’s PASA policy. Without clear
procedures and quality assurance controls in place for its pre–authorization
process, such as a comprehensive quality assurance checklist, FMCSA does not
have adequate assurance that carriers have met requirements for participation in
the pilot program.

FMCSA Made Errors in Validating that One Potential Pilot Program
Carrier Complied With Drug and Alcohol Testing Regulations
FMCSA’s PASA auditor did not follow FMCSA’s procedures for assessing one
potential carrier’s compliance with drug and alcohol testing program requirements.
Although we identified errors for only one of the three carriers 15 we reviewed, the
auditor did not verify the enrollment of the carrier’s 16 potential drivers in a
random drug and alcohol testing pool. Additionally, the auditor did not investigate
why the carrier’s drug and alcohol statistical summary report 16 contained eight
incomplete random drug tests and two incomplete random alcohol tests. Although
the auditor reviewed the summary report to ensure drivers were tested at required
rates, the auditor did not verify driver enrollment in a random testing pool or
determine whether the incomplete tests were for drivers the carrier employed and
the reasons for the incomplete tests. Also, FMCSA’s quality assurance personnel
did not identify or investigate the discrepancies.

Under Federal regulations, each driver must be enrolled in a random drug and
alcohol testing pool 17 and must have an equal chance for testing each time
selections are made. 18 Additionally, according to Federal regulations, the failure of
a driver to appear for a random drug or alcohol test is considered a refusal to test. 19
As a result of this violation of the regulations, the driver is prohibited from


15
     We accompanied FMCSA on three of the five PASAs conducted as of January 27, 2012. For further information on
     our methodology see Exhibit A.
16
     49 C.F.R. § 382.401 requires employers to maintain records of drug and alcohol testing, including the collection
     process and the refusal of any driver to submit for testing.
17
     49 C.F.R. § 382.305(j)(1) requires that all covered drivers be enrolled in a random drug and alcohol testing pool.
18
     49 C.F.R. § 382.305(i)(2) requires that each driver selected for random alcohol and controlled substances testing
     under the selection process used, shall have an equal chance of being tested each time selections are made.
19
     49 C.F.R. §§ 40.191(a)(1) and .261(a)(1) state that if an employee fails to appear for any drug or alcohol tests, except
     a pre-employment test, the employee has refused to take a drug or alcohol test. 49 C.F.R. §§ 40.191(11)(c) and
     .261(b) state that the employee is subject to the consequences for a violation of agency regulations.
                                                                                                                10


performing safety–sensitive functions. 20 To return to duty, the driver must be
referred to and treated by a substance abuse professional, retested, and undergo a
minimum of six follow–up tests.

We compared the carrier’s list of drivers submitted for the pilot program to the
carrier’s drivers enrolled in the random testing pool and identified 1 of the
16 drivers that was omitted from the random testing pool. In response to our
inquiry, FMCSA confirmed that the omitted driver was not enrolled in the random
drug and alcohol testing pool and had performed safety sensitive duties for
approximately 10 months. FMCSA attributed the omission to human error by its
auditor. On December 22, 2011, we requested documentation for eight incomplete
random drug tests and two incomplete random alcohol tests. FMCSA met with the
carrier on February 10, 2012, and identified one active driver who did not report
for testing. According to the carrier, the driver did not report for testing because
the driver operated only in Mexico. FMCSA’s review of its inspection records
indicated that the driver operated in the United States on several occasions, the
most recent on June 21, 2011. FMCSA disqualified the driver from performing
safety–sensitive duties and required the carrier to take corrective action to address
the problems identified with its drug and alcohol testing program.

FMCSA Did Not Plan to Periodically Review the Quality of Electronic
Monitoring Data
FMCSA incorporated electronic monitoring devices in its approach for monitoring
participant carriers’ compliance with pilot program rules and motor carrier
regulations and installed these devices on two trucks, one for each of the two
approved carriers. However, FMCSA’s pilot program monitoring plan does not
call for periodic reviews of electronic monitoring data quality and reporting
accuracy as the pilot program progresses. Rather, FMCSA has relied heavily on a
federally required self–certification made by the equipment manufacturer and has
used a reactive approach toward identifying data issues.

Although FMCSA addressed the data issues we identified, its approach to
providing controls for such issues has been reactive rather than proactive. In one
instance, 5 days after the first vehicle used in the pilot program began operations,
FMCSA resolved an issue regarding the use of multiple assigned vehicle
identifiers in the electronic monitoring data. FMCSA also addressed
inconsistencies we identified in weekly operational reports generated from
electronic data for inspections and northbound border crossings. For example,
FMCSA amended two weekly operational reports to reflect a November 15, 2011,
inspection and a December 27, 2011, northbound border crossing that were not
indicated in previous reports. FMCSA also reviewed a potential hours of service
20
     49 C.F.R. § 382.211 prohibits employers from using a driver who refuses to submit to testing from performing or
     continuing to perform safety-sensitive functions.
                                                                                                                    11


violation we identified in raw data that turned out to be an erroneous alert
triggered by the electronic monitoring device. A manufacturer software upgrade
resolved this issue.

Despite the actions FMCSA took in response to the data issues we identified,
FMCSA’s monitoring plan does not call for periodic reviews of electronic
monitoring data quality and reporting accuracy as the pilot program moves
forward and participation increases. For example, it has no provision in its pilot
program monitoring plan to compare electronic data with the data obtained during
border inspections as a check on the consistency of both data sources.

FMCSA Has Delayed Development of a Mechanism for Detecting
Cabotage Violations
FMCSA has not completed full development of mechanisms for detecting
cabotage. FMCSA assigned its electronic monitoring contractor 21 the
responsibility to develop a methodology and tools for detecting patterns of activity
that could indicate cabotage. However, FMCSA indicated the contractor’s
development of the methodology remains on hold because it would not be
cost-effective given the low participation in the pilot program.

Cabotage is a prohibited activity under the provisions of the pilot program
whereby motor carriers pick up cargo from one location in the United States and
deliver the same cargo to another location within the United States. Federal
regulations 22 and the NAFTA agreement 23 also prohibit cabotage. FMCSA has
implemented a manual procedure for its field staff to use in checking weekly
electronic monitoring reports to detect and follow up on suspicious routing.
However, FMCSA staff in its Headquarters and field offices expressed concern
that FMCSA does not currently have in place an effective means for detecting
cabotage.

FMCSA DOES NOT HAVE SUFFICIENT PILOT PROGRAM
PERFORMANCE DATA TO DETERMINE SAFETY EFFECTS
Because of the low participation rate in the pilot program, we are unable to assess
whether the pilot program will adversely affect motor carrier safety. At this point,
no statistically reliable projections or estimates can be made on important safety
characteristics, such as the number of crashes that could be expected from long–
haul Mexico-domiciled carriers. We will continue to monitor progress during the
final stage of our audit series to determine whether sufficient data become
21
     FMCSA negotiated a firm-fixed-price per unit contract with Teletrac, Inc., for the installation and monitoring of
     electronic monitoring equipment in pilot program trucks. The contract is for one base year through August 31, 2012,
     and two option years through August 31, 2014.
22
     49 C.F.R. Part 365.
23
     NAFTA Annex I, page I-U-20.
                                                                                                              12


available to make reliable conclusions regarding the safety performance of pilot
program participants.

To date, our analysis is limited to 27 of the 30 pilot program applicants, 24 but we
were unable to identify any safety trends. Table 2 provides general descriptive
statistics regarding the characteristics of the applicant pool.

 Table 2. Characteristics of Pilot Program Applicants




 Source: OIG analysis

The majority of program applicants expressed interest in participating with fewer
than five trucks. Based on our tracking of applications, two carriers with larger
fleets (Transportes Unimex with 30 trucks and GCC Transporte with 15 trucks)
may receive pilot program authority, which would yield increased program
activity.

CONCLUSION
Under the NAFTA cross–border trucking provisions, the United States and
Mexico agreed to facilitate the transport of goods and services between the two
nations. FMCSA’s pilot program authorizes Mexico–domiciled motor carriers to
transport cargo throughout the United States, but FMCSA must ensure these
carriers have basic safety management controls in place before beginning long–
haul operations. A robust oversight program is vital to the success of the pilot
program. Taking proactive steps to improve its guidance, monitoring, enforcement
mechanisms, and data quality controls based on our findings during the early
stages of the program will better position FMCSA to avoid any risks to motor
carrier safety within the United States.




24
     Only 27 applications were uploaded into FMCSA’s application tracking system at the time of our review.
                                                                                 13


RECOMMENDATIONS
We recommend that the Federal Motor Carrier Safety Administrator:

1. Revise FMCSA’s traffic and road sign testing policy and procedures to

   a. Require English responses to questions about traffic and road signs, in
      accordance with the Federal Register requirements.

   b. Require testing of all 21 traffic and road signs used for the PASA test.

   c. Add a height clearance road sign to the traffic and road sign test.

   d. Provide training and guidance on traffic and road sign testing to all
      enforcement officials.

2. Revise FMCSA’s quality assurance procedures for PASAs to ensure that field
   supervisors and new entrant specialists validate the agency’s verification of the
   Secretaria de Communiciones y Transportes–tested drivers and ensure the
   accuracy of drug and alcohol statistical summary reports and the accuracy of
   random drug and alcohol testing pools before approving PASAs.

3. Revise FMCSA’s pilot program monitoring plan to include proactive controls
   such as periodic checks of electronic monitoring data quality and reporting
   accuracy.

4. When appropriate program participation warrants, complete the development
   of mechanisms for detecting cabotage violations as called for in the electronic
   monitoring contract.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with our draft report for review and comment on
May 11, 2012. We received its technical comments on May 24, 2012, and its
formal response on July 27, 2012. FMCSA’s response is included in its entirety as
an appendix to this report. FMCSA concurred with recommendations 1 and 4. We
consider FMCSA’s actions to address recommendation 1 sufficient but open
pending receipt of documentation of its actions. We consider recommendation 4 to
be resolved and closed based on actions FMCSA has taken.

FMCSA did not concur with recommendations 2 and 3, which call for FMCSA to
revise its PASA quality assurance procedures and its pilot program data
monitoring plan; but it did agree to re–emphasize and monitor existing procedures.
Although FMCSA agreed that effective processes, controls, and monitoring are
                                                                                 14


critical, it had concerns that the instances we observed were isolated events. While
we continue to believe that the NAFTA pilot program could benefit from
improved procedures in the areas noted, we recognize that the program has had
minimal participation and thus provided limited operational data for review.
Further, FMCSA has demonstrated a willingness to address issues we raised
during our audit and in response to our draft report. Accordingly, we consider
FMCSA’s actions on recommendations 2 and 3 to be sufficient at this time, and
the recommendations will be closed but subject to review during our next audit.
We will evaluate FMCSA’s actions to address all recommendations during our
congressionally mandated final audit of the pilot program, which is due 6 months
after the pilot program ends.

ACTIONS REQUIRED
In accordance with the follow–up provisions in Department of Transportation
Order 8000.1C, we request that FMCSA provide us within 30 days documentation
of its June 11, 2012, PASA policy and a roster for its August 2012 refresher
training. Upon receipt of this documentation, we will close recommendation 1. No
additional action is required.

We appreciate the courtesies and cooperation of Department of Transportation and
Federal Motor Carrier Safety Administration representatives during this audit. If
you have any questions concerning this report, please call me at (202) 366–5630
or Kerry R. Barras, Program Director, at (817) 978–3318.

                                         #

cc:    Karen Lynch, FMCSA Liaison, MC-PRS
       Martin Gertel, OST Liaison, M-1
                                                                                 15



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from October 2011 through May 2012 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
Our objectives for this interim audit were to determine whether (1) the pilot
program consists of an adequate and representative sample of Mexico–domiciled
carriers that are likely to engage in cross–border operations beyond the United
States municipalities and commercial zones on the United States–Mexico border,
(2) Federal and State monitoring and enforcement activities are sufficient to
ensure that participants in the pilot program are complying with all applicable laws
and regulations, and (3) the Department has established sufficient mechanisms to
determine whether the pilot program is adversely affecting motor carrier safety.
To determine whether the pilot program consists of a representative and adequate
sample of Mexico–domiciled carriers that are likely to engage in cross–border
operations beyond the United States municipalities and commercial zones on the
United States–Mexico border, we monitored the progress of the pilot program and
collected applicant and participant data.
To determine whether monitoring and enforcement activities were sufficient to
ensure that pilot program participants complied with applicable laws and
regulations, we conducted audit procedures for each process we examined,
including those for pilot program applications, conduct of PASAs, border
enforcement plans, and electronic monitoring devices. We reviewed guidance and
attended pilot program training courses and webinars provided to FMCSA and
State law enforcement officials. We accompanied FMCSA on three of the five
PASAs conducted, two in the United States and one in Mexico. We selected the
three PASAs for observation based on timing and location factors. We observed
procedures FMCSA personnel used to qualify carriers for the pilot program,
including identifying and inspecting commercial vehicles and testing prospective
drivers. We interviewed FMCSA personnel to gauge their understanding of PASA
procedures and vehicle/driver inspections, and to resolve any differences we
observed between planned and actual procedures used by FMCSA personnel.
To assess whether the Department has established sufficient mechanisms to
determine whether the pilot program is adversely affecting motor carrier safety we
reviewed performance data FMCSA intends to use, provided an interim snapshot
of the pilot program, and identified key characteristics of the applicant group
(business type, fleet size, etc.).


Exhibit A. Scope and Methodology
                                                                         16



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

U.S. Department of Transportation
      Office of the Secretary
           Office of Drug and Alcohol Policy and Compliance, Washington, DC
      Federal Motor Carrier Safety Administration
           Headquarters Offices, Washington, DC
           Field Offices
                 San Diego, California
                 El Paso, Texas
                 Weslaco, Texas
       Mexico-Domiciled Carriers (Observations of PASAs)
                 Tijuana, Mexico
                 El Paso, Texas
                 Weslaco, Texas, and Pharr, Texas




Exhibit B. Acti vities Visited or Contacted
                                                                      17



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                     Title

Kerry R. Barras                   Program Director

Darrell A. Riegel                 Project Manager

Brian L. Chapman                  Senior Analyst

Patrick D. Conley                 Senior Auditor

Anthony V. Saraco                 Senior Auditor

Anette Soto                       Senior Analyst

Stuart I. Weibel                  Senior Auditor

Harriet E. Lambert                Writer–Editor

Seth B. Kaufman                   Senior Counsel

William Savage                    Information Technology Specialist

Petra Swartzlander                Senior Statistician




Exhibit C. Major Contributors to This Report
                                                                                                      18



           APPENDIX. AGENCY COMMENTS


                                                                  Memorandum
           U.S. Department of
           Transportation

           Federal Motor Carrier
           Safety Administration

Subject:    INFORMATION: Response to OIG Interim                     Date:      July 26, 2012
            Draft Report on NAFTA Pilot Program

From        Anne S. Ferro                                            Reply to   William A. Quade
                                                                     Attn: of
            Administrator                                                       Associate Administrator
                                                                                  for Enforcement
                                                                                X62172
To:         Joseph W. Comé
            Assistant Inspector General for
               Highway and Transit Audits

           Prior to the implementation of the U.S.-Mexico Cross Border Long Haul Trucking Pilot
           Program, the Federal Motor Carrier Safety Administration (FMCSA) established the necessary
           policies, procedures, and guidelines to conduct a safe and effective pilot program. The FMCSA
           has been diligent in its efforts to monitor participating carriers and drivers, ensure that the pilot
           program is operating in accordance with the Agency’s regulations and commitments, and is
           resulting in a safe and effective program.

           The FMCSA designed the pilot program to exceed all legal and regulatory requirements
           regarding the safety of carriers. The Agency implemented a vigorous safety and security vetting
           program that successfully identified four carriers that were not allowed to participate due to a
           poor safety history or because they did not meet the Department of Homeland Security (DHS)
           requirements. We also implemented a comprehensive driver vetting process that compiles the
           driver’s driving history in Mexico and the U.S. and ensures their original testing met the
           requirements of the U.S.-Mexico Memorandum of Understanding regarding Commercial Driver
           Licenses. The FMCSA also developed a comprehensive policy for conducting Pre Authority
           Safety Audits (PASA) that includes reviewing each applicant’s capabilities for ensuring
           compliance with regulations for key safety systems. These audits also ensure that each driver
           and every vehicle intended for participation in the program is in compliance with the regulations.

           Following entry into the program, FMCSA has an aggressive monitoring program that includes
           utilizing electronic monitoring devices installed on each vehicle that enables the Agency to:
           1) receive notifications before participating vehicles reach the border; 2) monitor the drivers’
           hours-of-service compliance, and 3) have visibility into vehicle movements to identify possible
           violations of authority that would exist if the carrier transports cargo from point-to-point within
           the U.S. The monitoring program has resulted in all required inspections being conducted on


           Appendix. Agency Comments
                                                                                         19


Mexican carriers (each carrier is subject to inspection every time they cross for the first 3 months
they participate in the program) and includes having investigators perform weekly reviews of the
data from the system to identify and follow-up on possible violations.

The FMCSA’s rigorous screening and monitoring program has resulted in over 52,000 miles of
travel by participating carriers without a crash and 83 inspections during which only one vehicle
and no drivers were placed out-of-service (the national out-of-service rates for all inspections in
the U.S. are 20.7 percent for vehicles and 5.5 percent for drivers).

To the extent that the OIG may have identified an occurrence based on limited observations that
could suggest further improvement to the program, we ask that the OIG ensure the presentation
of the issue in its report comport with the limited scale of the program and its observations. For
example, FMCSA performed a review of the drug and alcohol testing program for every carrier
that received a PASA. These requirements are established in FMCSA’s electronic Field
Operations Training Manual (eFOTM) and each auditor and investigator is trained on these
requirements prior to being certified to conduct safety audits or compliance reviews. During the
course of its work, OIG noted a single instance where an FMCSA auditor made an error in the
process used to verify the accuracy of the driver list submitted for random drug tests. While this
error should not have occurred, it is not indicative of a systemic failure of process, but as an
isolated error noted in an observation of a single test.

Presently, four carriers are approved to operate in the program. The Agency continues to
conduct the verification and oversight actions necessary and is considering additional carriers for
participation in the program. While FMCSA will draw what lessons it can from the pilot
program, the Agency recognizes that statistically valid results will require much broader
participation as identified at the outset of the program. The Agency continues to work with the
Government of Mexico to provide information regarding the pilot program to interested carriers.

RECOMMENDATIONS AND RESPONSES
Recommendation 1: Revise FMCSA’s traffic and road sign testing policy and procedures to:
(a) require English responses to questions about traffic and road signs, in accordance with the
Federal Register requirements; (b) require testing of all 21 traffic and road signs used for the
PASA test; (c) add a height clearance road sign to the traffic and road sign test; and, (d) provide
training and guidance on traffic and road sign testing to all enforcement officials.

Response: Concur. The FMCSA issued a revised policy memorandum to reiterate to the
Agency’s auditors that the English Language Proficiency interview and sign evaluation must be
conducted completely in English during the PASA, in keeping with the requirements explained
in the Agency’s Federal Register notices regarding the pilot program. In addition, this policy
added a height restriction sign and requires that all 22 signs be tested during the PASA. This
policy was approved on June 11, 2012, and distributed to FMCSA’s field staff on June 12, 2012.

While training prior to implementation of the pilot program provided the instruction that sign
testing be performed in English, refresher training for FMCSA’s auditors is scheduled for
August 2012. The revised policy will be reinforced during the refresher training session.



Appendix. Agency Comments
                                                                                         20


Recommendation 2: Revise FMCSA’s quality assurance procedures for PASAs to ensure that
field supervisors and new entrant specialists validate the Agency’s verification of the Secretaria
de Communiciones y Transportes (SCT)-tested drivers and ensure the accuracy of drug and
alcohol statistical summary reports and the accuracy of random drug and alcohol testing pools
before approving PASAs.

Response: Non-concur. The Agency recognizes the importance of effective PASA processes
and quality controls and established protocols for confirming the validity of a motor carrier’s
drug and alcohol testing program. This review process is used during a PASA, a compliance
review, or other investigation of a carrier’s drug and alcohol testing program. The
documentation for this process is contained in the Agency’s eFOTM.

The FMCSA implemented processes to ensure that field supervisors and new entrant specialists
verify that drivers are tested by SCT. FMCSA’s North American Borders Division, not the
Agency’s field staff, is responsible for this process. The North American Borders Division
submits requests to SCT for verification and maintains the documentation provided by SCT for
each driver a carrier would use in the pilot program. An interim driver vetting policy was
updated in February 2012 to outline where the responsibility for this function lies within the
organization.

Further, the Agency’s PASA approval process provides for several internal controls, including
final approval authority within the North American Borders Division. No PASAs were approved
by the North American Borders Division prior to confirmation of the drivers’ licenses and
SCT-testing. In addition, the PASA must be completed before the Agency posts the carrier’s
name in the FMCSA Register to enable interested parties to protest the application for operating
authority; the FMCSA Register process is applied to all motor carriers seeking operating
authority. There are no instances of an FMCSA Register notification being issued for a carrier
before FMCSA confirmed the drivers’ licenses and SCT-testing. To date, FMCSA has not
issued an FMCSA Register notification concerning GCC Transporte’s application for operating
authority.

For example, the dates that drivers’ license records were received for Baja Express and GCC
Transporte are as follows:

Baja Express
       Federal Policy Conviction Check: January 24, 2012
       SCT – DGAF Conviction Check: January 31, 2012
       Licencia Federal Test Location Check Received: January 3, 2012
       PASA Approved: February 21, 2012

GCC Transporte
     Federal Policy Conviction Check: January 5, 2012
     SCT-DGAF Conviction Check: January 27, 2012
     Licencia Federal Test Location Check Received: January 30, 2012
     PASA Approved: Not yet approved




Appendix. Agency Comments
                                                                                           21


The FMCSA notes that during the PASA observed by OIG, FMCSA’s auditor collected
significant documentation of GCC Transporte’s drug and alcohol testing program. However, the
FMCSA auditor did not strictly follow the established protocol for the drug and alcohol program.
FMCSA considers this instance a single noncompliance with existing policy by staff, and not
evidence of the need to revise its quality assurance procedures for PASAs. Therefore, while
FMCSA will reemphasize the procedures in the refresher training scheduled for August 2012, it
considers the procedures in place to be adequate. It will continue to monitor the implementation
of these procedures but does not plan to revise them at this time.

Recommendation 3: Revise FMCSA’s pilot program monitoring plan to include proactive
controls such as periodic checks of electronic monitoring data quality and reporting accuracy.

Response: Non-concur. The FMCSA’s Monitoring Policy establishes the procedures for
routinely reviewing the reports and data concerning electronic monitoring devices for potential
violations of the pilot program’s requirements. This process has been successfully used to
identify potential issues for subsequent investigation.

The Agency acknowledges that two operational reports reviewed by OIG staff during this
engagement were subsequently updated. The FMCSA discovered the errors and the reports were
revised accordingly. Further, the revisions made to the reports did not have an adverse impact on
the Agency’s oversight of the pilot program.

With regard to the potential hours-of-service (HOS) violation identified by the OIG based on its
review of raw data from the monitoring system, the Agency notes that while the Teletrac unit on
the vehicle reported a potential HOS violation, the system’s software correctly interpreted the
final data set and determined that there was no HOS violation. Further, FMCSA staff reviewed
the duty status information and confirmed that there was no HOS violation. Additionally,
Teletrac upgraded the in-vehicle unit to prevent future false alerts of violations related to drivers’
use of sleeper berths. This programming upgrade was completed within days of the false alert in
the raw data.

Recommendation 4: When appropriate program participation warrants, complete development
of mechanisms for detecting cabotage violations as called for in the electronic monitoring
contract.

Response: Concur. As noted above, the Agency established a methodology for using the
Teletrac equipment to collect data on compliance with cabotage restrictions. Should an incident
of cabotage be identified in this program, FMCSA would contact the DHS Customs and Border
Protection component, the Federal agency responsible for enforcing the cabotage regulations.

Although the Agency’s contract with Teletrac includes a clause for the contractor to develop an
automated means of detecting cabatoge, FMCSA has not exercised this automated support option
because participation in the program remains low and this level of support is not needed at this
time. However, when participation levels increase to the point where manual monitoring would
not be practicable, we will exercise the automated support provision of the contract.




Appendix. Agency Comments
                                                                                      22


We appreciate the continuing dialogue with OIG to address these issues. Should you have any
questions on the pilot program, or need additional information regarding our responses, please
contact William A. Quade, Associate Administrator for Enforcement at 202-366-2172 or
william.quade@dot.gov.




Appendix. Agency Comments
